               u.s. DEPARTMENT     OF COMMERCE
                                                                c:.~:'f
                        Office of Inspector General             ~~()      ~ ,~
                                                                    ~"'TESo'i




                 ECONOMIC DEVELOPMENT
                        ADMINISTRATION

                Tyler Economic Development Council
                                        Tyler, Texas
                               Revolving Loan Fund
                        EDA Grant Nos. 08-39-02823
                                And 08-39-02823.01

                         Audit Report No. ATL-13734-1-0001/March          2001




                                          PUBLIC
                                          RELEASE
                                 Office of Audits, Atlanta Regional Office




~~:)/.   ,.
~ l.
".. f
    ~. 1
    't,... '
u.s. Department of Commerce                                                                           Audit Report ATL-1J734-1-0001
Offlce of Inspector General
                                                                                                                         March 2001

                                                            CONTENTS

EXECUTIVE        SUMMARY.              . . . . . . . . . . . . . . .. . . , . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . "            i

INTRODUCTION.               . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

PURPOSE     AND       SCOPE      OF AUDIT.             . . . . . . . . . . . ..    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   2

FINDINGS     AND       RECOMMENDATIONS.                            . . . . . . . . . . . . . . . . . . . . . . . -. . . . -. . . . . . . . .     3

       COUNCIL HAS NOT DEMONSTRATED NEED
       FOR RECAPITALIZATION GRANT """""""""                                                                    -.   -..   -.                     3

            Council     Has Not Achieved            Grant Disbursement               Milestones.           . .. -... -.-.-. ... ..3

           RLF       Loan   Demand       is Insufficient.          . . -. . . . . . : . . . . . . -. . . . . . . . . . . . . . . . . . . . .     4

           Grantee      Response.          . . . . . . . . . . . . . . . . . . . . . . . -. . . . . . . . . . - -- . . . . . . . . . . . .       5

           OIG Comments.               . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . , . . . . . . . . . . . . . .      5

           Recommendation.               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . - . . . . . .. . . . . . . . . . . . . . 5

           Funds to Be Put to Better Use.                    . ......................................5
                                                               ;




       COUNCIL DID NOT FOLLQW CERTAIN RLF ADMINISTRATIVE
       REQillREMENTS                                                                                                                             6

           $34,582      in Administrative         Costs Questioned.               . ..... .. .. ... ... ... .. ..... .. ..                       6

           Grantee      Response.         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . .       6

           OIG    Comments.           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      6

           Recommendations.               . . . . . . . . . : . . . . . . . . . . . . . . . . . . . . . . . . . . . . -. . . . . . . . . .       6

           Funds to Be Put to Better Use.                    ...    - - . . . . . . . . . . . . . - . . - . . . . . . . . . . . . . . . . . .    7


APPENDIX     I              GRANTEE RESPONSE TO DRAFT AUDIT REPORT
"




    US. Departitlent of Commerce                                           Audit Report ATL-13734-1-0001
    Office or /nsoector General                                                               March 200/

                                             EXECUTIVE SUMMARY

    The Tyler Economic Development Council promotes economic growth by providing various
    programs for both new and existing businesses. One such program is a federally funded
    revolving loan fund (RLF) provided through the Economic Development Administration: In
    September 1992, EDA awarded the council a $500,000 grant to establish an RLF, In March
    1996, EDA awarded the council another $500,000 grant to recapitalize the RLF.

    We performed a financial and compliance audit of the council's RLF during August 2000, The
    main purpose of our audit was to determine the reasons for the council's delays in drawing down
    the RLF recapitalization grant award. Other audit objectives were to evaluate the council's
    financial management of its RLF, and to assess the council's compliance with applicable RLF
    administrative and loan documentation requirements.

    Wefound that the council has not n.eededthe recapitalization grant funds because there has been
    insufficient demand for loans. In fact, the original grant and subsequent loan repayments have
    provided more than enough monies to meet the council's loan demand. As of August 2000,.
    more than four years after the second award, the council had not made any drawdowns on its
    $500,000 recapitalization grant. The grant agreement requires that all funds be drawn down and
    used: to make loans within thre~ years of the award, unless EDA approves a time schedule
    extension or the recipient meets other specified conditions not present here. We found no
    documentation to support that the council requested and ED A formally approved an extension.
    According to a council official, EDA verbally granted an extension through March 2000.
    However, as it turned out, the council did not need any of the grant funds for loans.

    The grant agreement also reflects Federal law that requires EDA to automatically deobligate any
    grant funds not disbursed by September 30 of the fifth year after the year of the grant award,
    which in this case is September 30,2001. Even if a demand for loans develops before that date,
    there is limited time for the council to adequately evaluate loan applications to ensure that any
    loans made are prudent and consistent with program objectives. Therefore, we believe that it
    would be in the government's best interest for EDA to immediately terminate the grant
    agreement and deobligatethe grant funds (see pages 3-5).

    In addition. the council did not follow certain EDA and OMB requirements in administering its
    RLF grat:ltprogram. As a result, the council incurred $34,582 in questioned grant administration
    costs for the period April 1997 through March 2000 (see pages 6-7).

    We are recommending that EDA's Austin Regional Director (I) immediately terminate the
    council's RLF recapitalization grant and deobligate the $500,000 in grant funds; (2) disallow
    $34,582 of questioned grant administration costs and require the council to reimburse the RLF
    for that amount; and (3) require the council to implement procedures to ensure that all employees'
    time sheets are appropriately prepared and maintained.




                                                         -)-

      ..   "-

            n.'   --. - -- un-- - -- ,- ,   _n-    ---
          u.s. Department o/Commerce                                              Audit Report ATL-13734-J-OOOJ
          Offlce ofInsoector General                                                                 March 200J

          In response to the draft report, council officials did not concur with the findings or
          recommendations. They presented information regarding the council's recent and prospective
          lending activity, and concluded that the council would need to make drawdowns ITomthe
          recapitalization grant in order to fund additional loans. In addition, the officials stated their
          corrective actions to document future RLF personnel costs, and provided information to support
          the reasonableness of the questioned costs.                                                       .

          Based on the council's response, we have incorporated into the report information regarding the
          council's recent and prospective lending activity. However, council officials did not provide a
          projected drawdown schedule to justifY the need for grant funds, or any additional documentation
          to support the questioned costs. Therefore, after careful review and' consideration of the
          remainder of the council's response, we did not substantively modifYany additional portions of
          the draft report's findings or recommendations.

          We have summarized the council's responses to individual issues and provided our comments
          after the appropriatesectionsof this report. We haveincludedthe council's completeresponse,
          with the exception of the attachments, as Appendix 1.




                                                          -11-


_h" - .
U.S. Department of Commerce                                                 Audit Report ATL-13734-I-OOOl
Offlce of Insoector General                                                                    March 2001

                                          INTRODUCTION

The Tyler Economic Development Council is a Texas non-profit corporation formed in 1989 to
diversify the economic base of Tyler and Smith counties and create new job opportunities.
Specifically, the council promotes economic growth by assisting and encouraging the retention
and expansion of existing businesses, developing new and small businesses, targeting and
attracting new businesses, and providing incentives and infrastructure for businesses. As one
method of achieving its objectives, the council administers a federally funded revolving loan
fund (RLF) provided through the Economic Development Administration.

In September 1992, EDA awarded the council a $500,000 Long-Term Economic Deterioration
(LTED) grant, No. 08-39-02823, to establish an RLF. The grant was funded under Title IX of
the Public Works and Economic Qevelopment Act of 1965, as amended. It required the council
to provide a $167,000 matching share, which brought the ~F'scapitalization to $667,000. The
RLF was to be used to promote economic and business development in Smith County.

In March 1996, EDA awarded the council another $500,000 LTED grant, No. 08-39-02823.01,
to recapitalize, or add funding, to the RLF. The grant required the councilto provide a $166,667
matching share. The additional funding raised the RLF's total capitalization to $1,333,667. The
recapitalization award was for the same purpose as the original grant.

According to its semiannual report to EDA as of Marctl 31, 2000, the council had made 13 RLF
loans totaling $1,218,264.    Of those 13 loans, 6 had been fully repaid,   i ,had been   written off at a
loss of $68,723, and 5 remained active with total outstanding balances of$371,193. In addition,
as of that date, the council had $428,899 on hand for new loans, with $250,000 of that amount
committed to one loan, which was subsequently made in August 2000. Also as of August 2000,
the council had drawn down the entire $500,000 of the original grant but none of the $500,000
recapitalization   award.                                                                    .
u.s. Department of Commerce                                               Audit Report ATL-13734-I-OOOI
Offlce ofInsvector General                                                                   March 2001

                               PURPOSE AND SCOPE OF AUDIT

We performed a financial and compliance audit of the RLF at the council's office in Tyler, Texas,
during August 2000. The main purpose of our audit was to determine the reasons for the
council's delays in drawing down the RLF recapitalization grant award. Other audit objectives
were to evaluate the council's financial management of its RLF, and to assess the council's
compliance with applicable RLF administrative and loan documentation requirements.

We examined pertinent EDA and council records, and interviewed agency and grantee officials as
deemed necessary. We reviewed the council's loan files for each of its 13 RLF borrowers and its
RLF administrative costs trom April I, 1997 through March 31, 2000.

We examined the cOuncil's recent.annual single audit reports, which included the report for the
fiscal period ended September 30, 1999. These audits were conducted by independent certified
public accountants in accordance with the criteria contained in Office of Management and J?udget
Circular A-133. The reports disclosed no material internal control weaknesses. However, we did
not rely upon the public accountant's internal control reviews but instead determined that we
could better meet our audit objectives through detailed substantive testing of RLF transactions.

We did not rely on computer-processed data as a basis for our audit findings and
recommendations. Consequently, we did not conduct tests of either the reliability of the data or
the controls over the computer-based system that produced the data.

Except as disclosed in this report, the results of our tests indicate that, with respect to the items
tested? the council complied in all material respects with applicable federal laws and regulations.
With respect to items not tested, nothing came to our attention that caused us to believe that the
council had not complied in all material respects with those laws and regulations.

We conducted the audit in accordance with generally accepted government auditing standards~
arid performed it under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                  -2-
                                                                                                     'h..




    u.s. Department of Commerce                                               Audit Report ATL-/3734-/-0001
    Offlce of lnsoector General                                                                  March 2001

                                  FINDINGS ANDRECOMMENDA                TIONS

    COUNCIL HAS NOT DEMONSTRATED
    NEED FORRECAPITALIZA TION GRANT

    The council has not demonstrated a need for the recapitalization grant funqs. In fact, the original
    grant and subsequent loan repayments have provided more than enough monies to meet the
    council's loan demand. As of August 2000, more than four years after the award, the council had
    not made any drawdowns on its $500,000 recapitalization grant. Currently, the council has
    limited prospects for making additional loans. Federal law requires EDA to automatically
    deobligate any grant funds not disbursed by September 30 of the fifth year after the year of the
    grant award, which in this case is September 30,2001. Even if a demand for loans develops
    before that date, there is limited time for the council to adequately evaluate loan applications to
    ensure that any loans made are prudent and consistent with program objectives. Therefore, we
    believe that it would be in the government's best interest for EDA to immediately terminate the
    grant agreement and deobligate the grant funds.                .

    Council Has Not Achieved
    Grant Disbursement Milestones

    EDA's RLF Standard Terms and Conditions~ Section D.07, contains general requirements for
    disbursing RLF grants. Loans in the initial round of lending, which generate drawdowns in the
    grant disbursement phase, are to be completed within three years of the grant award. Within the
    three-year period, at least 50 percent of both the grant funds and matching share is to be disbursed
    within 18 months, and 80 percent within two years. If a grant recipient does not meet the
    prescribed deadlines, additional grant funds will not be disbursed unless EDA approves a time
    schedule extension, or the recipient meets other specified conditions not present here.

    EDA's RLF Administrative Manual, Section IX.E.,contains criteria for EDA to consider in
    granting time extensions. As soon as conditions become known that may materially affect its
    ability to meet any of the required disbursement deadlines, a grant recipient must provide EDA a
    written request for continued use of grant funds beyond the missed deadline. The extension
    request must demonstrate that: (I) the delay was unforeseen or generally beyond the recipient's
    control, (2) the need for the RLF still exists, (3) the current and anticipated use and benefits of the
    RLF remain consistent with the recipient's economic adjustment strategy and RLF Plan, and (4)
    achievement of a new proposed time schedule is reasonably possible with no further delays
.
        .
    foreseen.

    EDA's March 1996 grant award contained the general disbursement schedule referenced above.
    In April 1998, EDA notified the council that it had not met the 80 percent grant drawdown
    milestone date of March 1998. EDA further informed the council that it could request an
    extension of the milestones if it provided an explanation for the delay and a schedule of
    estimated drawdowns. In its response, the council advised EDA that since receiving the
    recapitalization grant award, if had funded five loans totaling $433,000 through the revolving


                                                      -3-


         .
u.s. Departmentof Commerce                                               Audit Report ATL-:-13734-1-000I
Office of Inspector General                                                                  March 2001

phase of its initial RLF award. The council also stated that any loan closed in the near future
would require using the recapitalization grant funds, and that it expected to expend the full grant
amount by March IS, 1999, which was the end of the three-year disbursement schedule.

Despite its response to EDA. the council did not need the grant funds during the first three years.
According to a council official, EDA verbally granted an extension through March 2000.
However, as it turned out, the council once again did not need any of the recapitalization grant
funds for loans.

Since the council had made no drawdowns as of August 2000, obviously it did not achieve any of
the grant disbursement milestones. Council officials cited several reasons for this. First, local
financial institutions are either reluctant to make loans where gap financing is needed or prefer to
make loans independently offederal funding. Second, the Tyler/Smith County area historically is
very conservative regarding participation in federal programs. Finally, the council has been
somewhat limited in marketing its various programs because of its relatively small staff.

The grant agreement reflects Federal law that requires EDA to automatically deobligate any grant
funds not disbursed by September 30 of the fifth year after the year of the grant award, which in
this case is September 30, 2001. Even if a demand for loans develops before that date, there is
limited time for the council to adequately evaluate loan applications to ensure that any loans
made are prudent and consistent with program objectives. Therefore, we believe that it would be
in the government's best interest for EDA to immediately terminate the grant agreement and
deobligate the grant funds.

RLF Loan Demand
Is Insufficient

A significant factor affecting the council's ability to make RLF loans is the lack of effectiveness of
its RLF marketing program. The council's marketing program itself is actually well-defined, as
evidenced by documentation council officials provided. This included specific marketing plans,
listings oflocal contact persons, publicity material used, correspondence with area officials,
records of various marketing events, a log of recent meetings with area commercial lenders, and
schedules of prospective RLF borrowers.

Howevet:, the council's marketing program apparently has not been effective in terms of actual
RLF loans generated. At the time of our field work, the council had made only one loan, for
$250,000, ITomApril 1998 through August 2000. In March 200 I, council officials advised us
that the council had made four more loans in the last 10 months from funds already available for
lending, and had two prospective loans totaling $300,000. However, the officials did not clearly
document the council's need for the recapitalization grant funds. Therefore, the council continues.
to be unable to make loans in accordance with EDA's grant disbursement milestones. EDA's
RLF Standard Terms and Conditions, Section C.II, provides that EDA may terminate any grant
based on the recipient's failure to comply with grant conditions.



                                                 -4-

 .. .---n.
         u:s. Department of Commerce                                           Audit Report ATL-/3734-1-0001
         Offlceof Insoector General                                                               March 2001

        Grantee   Response

        Council officials did not concur with our finding or recommendation. They stated that, after
        making four loans in the last 10 months, the council had $269~334 available for lending. Of that
        amount, $208,186 would be needed to fully fund loans already closed, leaving $61,148 available
        for new loans. The officials concluded that the council would need to make drawdowns ITomthe
        recapitalization grant in order to fund two prospective loans totaling $300,000.

        OIG Comments

        We have incorporated in the report the information regarding the.council's recent and prospective
        lending activity. However, the council's response does not adequately justifY that the council will
        need any recapitalization grant funds. Similar to its April 1998 letter to EDA, the council's
        responSe is merely a representation that it will need the grant funds. It contains no projected
        grant drawdown schedule that would take into consideration the effects of (1) .the rate of
        incoming payments for loans outstanding, (2) when the additional $208,186 would be disbursed
        for the loans already made, (3) when the two prospective loans totaling $300,000 would be
        disbursed, and (4) the matching share required upon disbursement of grant funds. Accordingly,
        we reaffirm our recommendation.

        Recommendation

        We recommend that EDA's Austin Regional Director immediately terminate the council's RLF
        recapitalization grant and deobligate the $500,000 in grant funds.

        Funds to Be Put to Better Use

        Implementing the above recommendation will allow $500,000 in unneeded grant funds to remain
        in the U.S. Treasury and be put to better use.                                           .




                                                        -5-


.','.'.,v,-
     U.S. Department of Commerce                                           AuditReport ATL-13734-I-OOOI
     Office of Insvector General                                                             March 2001

     COUNCIL DID NOT FOLLOW CERTAIN
     RLF ADMINISTRATIVE REQUIREMENTS

    The council did not follow certain EDA and OMS requirements in administering its RLF grant
    program. As a result, the council incurred $34,582 in questioned grant administration costs.

    $34,582 in Administrative      Costs Questioned

    For April 1, 1997, through March 31, 2000, the council claimed $70,058 as administrative costs
    for its RLF grant program, which included $49,333 in salary costs. We are questioning $34,582,
.   or 70 percent, of the salary costs claimed because.the council did not use monthly time sheets to
    prepare time distribution reports for some employees. Instead, council management allocated
    salary costs to the RLF based ontjme estimates and budgeted amounts. OMS Circular A-122,
    Attachment B, Paragraph 7.m., requires that charges to awards for salaries and wages be based
    on documented payrolls, and be supported by personnel activity reports that reflect the
    distribution of activity of each employee whose compensation is charged to the awards.

    Grantee Response

    Council officials did not concur with our finding or recommendation. Although they agreed that
    inadequate time distribution reports had been maintained, the officials stated that future montWy
    time sheets would adequately document employees' time distribution. To substantiate the
    reasonableness of the $34,582 in costs questioned, the officials submitted documentation
    supporting their request for approval of an indirect cost rate for the RLF.

    OIG Comments

    We agree that the council's action should be sufficient to document future RLF personnel costs.
    However, we have questioned the $34,582 in personnel costs for lack of documentation. Since
    the council's response presents only budgeted amounts relating to a proposed indirect cost rate, it
    provides no additional documentation to support the costs questioned. Therefore, we reaffinn
    our recommendation.

    Recommendations

    We recorrimend that EDA's Austin Regional Director:

    I.      Disallow the $34,582 of questioned grant administration costs and require the council to
            reimburse the RLF for that amount.

    2.      Require the council to implement procedures to ensure that all employees' time sheets are
            appropriately prepared and maintained.




                                                      -6-
u.s. Department o/Commerce                                          Audit Report ATL-13734-1-0001
Offlce of Inspector General                                                            March 2001

Funds to Be Put to Better Use

Implementing recommendation I will enable $34,582 of federal funds to be put to better use.



                                              gk/ol
~71(~~                                                  Date
E. Jerry McMahan
Acting Regional Inspector General
   for Audits




                                              -7-

             . .. . .. ..........
                                                                                                      APPENDIX I
                                                                                                    _Pa!!e 1 of 2

                                                                                                    p.o. Box 2004

                                                                                                    Tyler, Texas 75710


T    E   X   A   S                                                                                  903.593.2004

                                                                                                    800~648.9537
       Economic: March 9, 2001
                                                                                                    Fax 903.597.0699
    Development:
     Council; Inc. :
                     ..
                     : William F. Bedwell,   Jr.
                     . Regional Inspector General for Audits
                       Office of Inspector General
                       U.S. Department of Commerce .
                      401 West Peachtree St., N.W.- Suite 2742
                      Atlanta, Georgia 30308.
                      Re:   Draft   report ATL-13734-1-XXXX.

                      Dear Mr. Bedwell:

                      This letter is in response to your letter of February 9,2001, and the draft
                      audit report ATL-13734-1-xxxx. We respectfully disagree with the
                      proposed findings or recommendations, as follows.
                      NEED FOR RECAPITALIZATIONGRANT

                      In March 1996 E~A awarded the Tyler Economic Development Council a
                      $500,000 grant to recapitalize the RLF. Since that date, the RLF has
                      closed 9 loans totaling $908,264. Four of them closed in the last 10
                      months.

                      Of the loans closed:

                            balance of funds available for lending        $ 269,334
                            not yet funded                                  208,186
                            net capital available                         $ 61,148

                     RLF staff is currently working with applicants who have requested the
                     following loans:


                            ~                      current applications
                                                                          $ 100,000
                                                                            200,000
                                                                          $ 300,000
                                                                                       .




                     The RLFwillneed to draw down funds fromthe second grant in order to-
                     fund these loans.                                 ! r~'~o>-:c',:,~
                                                                                     .~~~~': ...y)!
                                                                                ~                          I
                                                                                I     MAR!? ZOUl           i

                                                   AmfJ                         by~
                                                                        APPENDIX I
                                                                        Page 2 of 2
Draft report ATL-13734-1-XXXX
March 6, 2001
Page 2



ADMINISTRATIVECOSTS

We acknowledge that inadequate time distribution reports were
maintained for part of the fiscal periods examined~ Administrative actions
have been taken to insure that monthly time sheets adequately document
employees' time distribution. Although grant administration costs in the
amount of $34,582 are being questioned, we believe th~ RLF's charges to
the EOA grant to be reasonable.

In order to substantiate these costs, we have prepared the documentation
required to request an indirectcost rate for the RLF. The documented
payrollcharges plus the proposed indirectcosts for the fiscal periods
being audited are shown on the attached sheet. Whilethis is not the
standard reportingmethod, these costs demonstrate that there was no
intent to overcharge the RLFfor administrativecosts.

We respectfully request permission to negotiate an indirect cost rate to be
used for fiscal year accounting beginning in this fiscal year.

SincerelYi

                      ~
J~cv>/                       .   r
Thomas G. Mullins, CEO
President/CEO.

c:   Pedro R Garza, Regional Director, Austin Regional Office, EDA
     Bobby Curtis, Chairman of the Board, TEDC
